           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of                                                      Date:    May 19, 2006
           Small Community Aviation Delays and
           Cancellations
           Report No. CR-2006-049
  From:    Todd J. Zinser                                                                   Reply to
                                                                                            Attn. of:   JA-50
           Acting Inspector General
    To:    The Secretary
           Deputy Secretary
           Acting Assistant Secretary
            for Aviation and International Affairs
           Federal Aviation Administrator


           Air service in markets of all sizes has declined since 2000 but none more so than
           in small communities. 1 Scheduled flights at small communities for the first
           3 months of 2006 were 17 percent lower than the number of flights scheduled in
           the same period in 2000.2 By contrast, scheduled flights at larger communities
           were down only 5 percent over the same time period. In the nation’s smallest
           communities, flight options have become increasingly more limited, and as a
           result, passengers from small airports may experience travel disruptions more
           acutely than travelers from larger airports with a broader range of alternative travel
           options. Eighty-seven percent, or 450, of the airports receiving scheduled
           passenger air service in the United States are small airports. Flights to and from
           small airports—roughly 7,400 scheduled per day—account for 25 percent of
           scheduled domestic service.

           Citing this concern, on August 9, 2005, the Senate Committee on Commerce,
           Science, and Transportation; Subcommittee on Aviation requested that our office

           1
               For the purposes of this report, the term “small community” represents the communities served by the combined
               FAA categories of small hub, non-hub, and primary commercial service airports (airports enplaning less than
               0.25 percent (1.8 million passengers) of the total U.S. enplanements in 2004). Large communities in this report refer
               to those served by the combined FAA categories of medium hub and large hub airports.
           2
               At the smallest of the communities (non-hubs), the number of flights was down 29 percent from the first 3 months of
               2006 when compared to the same period of 2000.
determine and quantify whether flights originating in small communities are
delayed or cancelled at a rate that is disproportionately higher than flights from
larger airports. 3 The Committee also requested that we explain the roles of the
Federal Aviation Administration (FAA) and the airlines in determining which
flights are delayed or cancelled during periods of reduced airport capacity or
excessive demand.

To conduct this analysis, we obtained delay and cancellation data for flights into
five selected large hub airports. 4 Since airspace congestion mostly affects flights
arriving at the large hub airports, we analyzed flight delay and cancellation data
for flights into the sampled hub airports.

We analyzed cancellation and delay patterns to determine whether either or both
had a relationship to community size or flight length. At the request of the
Subcommittee, we also analyzed delay and cancellation patterns for flights in
14 small community markets. We focused our analysis on January 2005, a peak
seasonal period for flight delays and cancellations. To determine the roles played
by FAA and airlines in determining which flights are delayed or cancelled, we
surveyed FAA, airports, and airlines. A more detailed discussion of our scope and
methodology is included in Exhibit A. We conducted this performance audit
under Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States.             We are not making any
recommendations in this report.


RESULTS IN BRIEF
In our analysis of cancellations and delays of flights into five large hub airports,
we found that delay rates were essentially the same for small and large
communities. However, both the length of delays and cancellation rates were
higher for flights from small communities, and this difference was statistically
significant. 5 We also found that short-haul flights were more likely to be cancelled
than medium-haul flights and long-haul flights. 6 Most small communities are
within 500 miles of their hubs. 7


3
    A flight is considered delayed if its actual gate arrival time is 15 or more minutes after its published scheduled
    arrival time.
4
    Chicago O’Hare, Washington Dulles, Denver International, Salt Lake City, and Minneapolis-St. Paul. These hub
    airports link to several of the 14 small community markets we analyzed in this review.
5
    The relationship between minutes of delay or cancellations and community size was unlikely to have occurred by
    chance. We considered findings to be statistically significant if their probability of occurring randomly was less than
    or equal to 5 percent.
6
    For the purposes of this report, short-haul is defined as within 500 miles, medium-haul as between 500 and 999
    miles, and long-haul as 1000 miles or more.
7
    Average distance for small community flights in 2005 was 379 miles.


                                                                                                                        2
Higher cancellation rates at small communities may occur due to differences
between the capability of aircraft and the sophistication of navigational aids
serving small communities, airline operating methods that provide for spare
aircraft and crew in larger communities, FAA decisions regarding the use of traffic
management techniques, and airline priorities used in making decisions on which
flights to delay and cancel when the aviation system is constrained. How these
factors converge is a process that is not readily transparent to consumers, who
generally only experience the end result.

When capacity is constrained, the airlines and FAA work together to balance
demand with available capacity. If constraints are severe, FAA may moderate
demand by temporarily halting flights or delaying the pace of arriving flights.
Under the latter case, FAA assigns delayed arrival times to flights in the order in
which they are originally scheduled to arrive; the airlines then have some
flexibility to manage the delay by “swapping” the order of delayed flights
(Figure I), cancelling flights and moving others up in the queue, or trading vacated
slots with other airlines. While FAA can assign delays, only an airline can choose
to cancel a flight.

    Figure I. Airlines May Swap the Order of Their Delayed Arrivals
           Airline     Flight   Original time of Arrival   Controlled time of Arrival   Delay
              A          1                 7:00                    7:00                    0
              A          2                 7:00                    7:10                   10
              B          3                 7:05                    7:20                   15
              B          4                 7:05                    7:30                  25
              B          5                 7:10                    7:40                  30
              B          6                 7:10                    7:50                  40
              A          7                 7:20                    8:00                  40
              C          8                 7:20                    8:10                  50
              B          9                 7:40                    8:20                  40
              C         10                 7:40                    8:30                  50
              A         11                 8:20                    8:40                  20
              B         12                 8:40                    8:50                  10
         Total Delay                                                                     330



Neither Community Size nor Distance from the Hub Affected the Rate of
Flight Delays

In our analysis of all flights in January 2005 into each of the five selected hubs,
the delay rates were essentially the same for flights connecting small and large
communities to their hubs. We found similar results in the 14 city-pairs that we
analyzed at the request of the Subcommittee—delay rates were not significantly
different than flights from all-sized communities to the same hubs (Table I). In
our analysis of flight delays by distance (short-haul, medium-haul, and long- haul),
we found about the same rate of delays across the three mileage groupings.



                                                                                                3
                     Table I. Percent of Flights Delayed*
                                                            Originating From
                      Flights Inbound to:                   Community Size
                                                            Small          Large
              Chicago-O'Hare                                  37             36
              Washington-Dulles                               28             28
              Minneapolis-St. Paul                            23             26
              Denver International                            25             26
              Salt Lake City                                  24             24
             * Results are based on averages weighted by the number of flights in each
               market.



Delays Were Longer on Flights from Small Communities and Flights from
Communities Closest to the Hub

Flights from small communities experienced, on average, longer delays than did
flights from large communities. The average differences ranged from 4 to
10 minutes, or 7 to 18 percent, and were statistically significant (Table II). We
found similar results in the 14 individual markets. Flights from 11 of the
14 city-pairs were delayed longer than the average hub delays. The differences
ranged from 1 to as much as 19 minutes. Flights in short-haul markets were
delayed slightly longer than flights in both medium-haul and long-haul markets.

                  Table II. Average Minutes of Arrival Delay*
                                                               Originating From
                         Flights Inbound to:                   Community Size
                                                               Small          Large
                 Chicago-O'Hare                                    75             70
                 Washington-Dulles                                 62             56
                 Minneapolis-St. Paul                              55             51
                 Denver International                              66             56
                 Salt Lake City                                    54             48
                * Results are based on averages weighted by the number of flights in each
                  market.



Flights from Small Communities and Flights in Short-Haul Markets had
Higher Cancellation Rates

At four of the five hub airports, the rate of cancelled flights from small
communities exceeded cancellation rates for flights from large communities
(Table III). The differences in those four cases were statistically significant.



                                                                                            4
Flights in short-haul markets were cancelled at higher rates than flights in both
medium-haul and long-haul markets.

                              Table III. Percent of Flights Cancelled*
                                                                          Originating From
                                  Flights Inbound to:                      Community Size
                                                                          Small       Large
                          Chicago-O'Hare                                    9.7             6.8
                          Washington-Dulles                                 4.8             6.3
                          Minneapolis-St. Paul                              6.2             3.2
                          Denver International                              4.4             1.7
                          Salt Lake City                                    7.2             2.5
                         * Results are based on averages weighted by the number of flights in each
                           market.



In our 14 city-pair analysis, we compared the cancellation rates in those markets to
the overall hub cancellation rates. We found that the cancellation rates were
higher in 8 of the 14 small community city-pairs than the overall rates at the hubs
connected to the small communities (Table IV). 8


         Table IV. Percent of Flights Cancelled – January 2005
     Comparison of Small Community Markets With Hub Airport Total
            State            From Small          Flights Inbound to:             Small                 Hub
                             Community                                         Community              Average
    ARKANSAS                 Fayetteville       Chicago-O'Hare                    14.4                  7.8
                                                Dallas/Ft. Worth                  3.2                   2.6
                             Texarkana          Dallas/Ft. Worth                  1.1                   2.6
                                                Houston Bush                      0.0                   0.6
    MONTANA                  Butte              Salt Lake City                       5.5                4.5
                             Helena             Salt Lake City                       7.3                4.5
    NEBRASKA                 Lincoln            Chicago-O'Hare                       7.4                7.8
                                                Denver International                 2.4                2.6
                                                Minneapolis-St. Paul                 9.5                4.4
                             McCook             Denver International                 0.0                2.6
    WEST VIRGINIA            Bluefield          Washington-Dulles                   11.5                5.9
                             Charleston         Cincinnati                          7.6                 5.8
                                                Washington-Dulles                   5.2                 5.9
                             Parkersburg        Pittsburgh                          6.6                 5.0



8
    Tables presenting the percentage of flights delayed and average minutes of delay for the 14 markets are located later
    in the body of the report.


                                                                                                                      5
Certain Characteristics of Air Service at Small Communities May
Make Them More Susceptible to Flight Disruptions
•      Aircraft. Small communities are primarily served by aircraft with restricted
       capability to fly over some weather patterns or to land in certain wind
       conditions.

•      Technology.      Major airports and airlines are equipped with more
       sophisticated navigational aids than their smaller airport and airline
       counterparts.

•      Airline Operating Methods. Spare aircraft and crew are usually not
       stationed at small communities. Cancelled or late-arriving flights in the
       evening may cause a cancellation or a late departure the following morning in
       order to comply with FAA’s “minimum hours of rest” rule. Larger
       communities often have crew bases where reserve crews can be called into
       service under these circumstances and spare aircraft available to substitute for
       those with mechanical problems.

•      FAA Management Decisions. If FAA implements a Ground Stop or
       Ground Delay Program on a regional basis (versus nationwide), short-haul
       flights (including many from small communities) are more likely to be
       affected, since the stop or delay is not imposed on long-haul flights. 9

•      Airline Economic Decisions. During periods of constrained capacity,
       airlines may choose which flights to delay or cancel; taking into consideration
       the number of passengers affected, access to alternative routings, or other
       factors. These decisions might affect small communities either positively or
       negatively.


FAA and the Airlines Both Have a Role in Managing Traffic During
Periods of Constrained Capacity, but the Airlines Determine Which
Flights Are Cancelled
During calendar year 2005, 28 percent of aviation delays and 52 percent of flight
cancellations were caused directly by weather. Severe weather conditions reduce
system capacity, requiring the airlines and FAA to adjust demand (level of
operations) to better match the constrained conditions.10 During January 2005, the
FAA implemented traffic management initiatives—halting or moderating the flow
of flights—on more than 400 occasions at 37 airports. The efforts were focused

9
     Ground Stops and Ground Delay Programs are FAA traffic management practices that, respectively, halt or delay
     flights. They are each described in greater detail later in the report.
10
     There are conditions other than weather that constrain capacity, including runway construction or failure of
     navigational equipment. The same principles apply when demand exceeds normal levels, such as for special events.


                                                                                                                   6
on eight airports (accounting for two-thirds of the occasions) where flight
operations were severely constrained for a total of more than 700 hours.


FAA May Reroute, Halt, and Delay Flights
Under the most severe of conditions, FAA may (1) re-route flights around
congested airspace, (2) implement a Ground Stop program that will halt all flights
destined to constrained airports or airspace, or (3) implement a Ground Delay
Program that assigns delays to specific flights destined to constrained airports or
airspace. The delays are neutrally assigned in the order of the original flight
schedules, resulting in the longest delays assigned to flights later in the original
order.


Airlines Have Some Flexibility to Reassign Delays or Cancel Flights to
Meet Their Operational Priorities
Prior to an FAA implementation of a Ground Stop or Ground Delay Program,
airlines may take the initiative to reroute or cancel flights to meet their operational
priorities. Once FAA implements a Ground Delay Program, airlines may (1) swap
the order of delayed flights among its FAA-assigned delayed arrival positions,
(2) cancel any of its delayed flights and move another of its delayed flights into
that vacated arrival position, or (3) cancel any of its delayed flights and attempt to
trade that vacated arrival position for a later position held by another airline. FAA
can assign delays to airline flights, but only an airline can cancel a flight.




                                                                                     7
FINDINGS

Flight Delay Rates are Not Affected by Either Community Size or
Distance from the Hub

Flights From Small and Large Communities Experienced Similar Rates of
Flight Delays

We found no evidence of disproportionate levels of flight delays in small
community air service markets in our sample of hub airports. Statistical analysis
of flights into five major US hub airports showed no relationship between flight
delays and community size. Average delay rates for flights from small and large
communities are presented in Table 1.


                       Table 1. Percent of Flights Delayed*
                                                               Originating From
                         Flights Inbound to:                   Community Size
                                                              Small          Large
                 Chicago-O'Hare                                 37             36
                 Washington-Dulles                              28             28
                 Minneapolis-St. Paul                           23             26
                 Denver International                           25             26
                 Salt Lake City                                 24             24
                * Results are based on averages weighted by the number of flights in each
                  market.


Flights from Sampled Small Communities Were Not Delayed at a Greater
Rate than Their Hub Airport Average

At the request of and in coordination with the Subcommittee, we compiled the
flight delay rates, length of arrival delay, and cancellation rates in markets
connecting 14 small communities with one or more of their connecting hub
airports. We compared the delay rates in the small community markets with the
rates for the hub airports overall. Flight delay rates for the sampled small
community markets were not greater than the hub airport averages. As illustrated
in Table 2, in only one of the 14 sampled small community markets did the
percent of flights delayed exceed the average for its hub airport.




                                                                                            8
         Table 2. Percent of Flights Delayed – January 2005
      Comparison of Small Community Markets With Hub Airport
                              Average
           State           From Small          Flights Inbound to:          Small         Hub
                           Community                                      Community     Average
    ARKANSAS               Fayetteville *     Chicago-O'Hare                 35.8         36.1
                                              Dallas/Ft. Worth               18.3         20.7
                           Texarkana          Dallas/Ft. Worth                6.6         20.7
                                              Houston Bush                   14.3         20.0
    MONTANA                Butte              Salt Lake City                 20.8         24.2
                           Helena             Salt Lake City                 23.5         24.2
    NEBRASKA               Lincoln            Chicago-O'Hare                 34.8         36.1
                                              Denver International           24.0         25.4
                                              Minneapolis-St. Paul           27.6         25.0
                           McCook             Denver International           22.6         25.4
    WEST VIRGINIA          Bluefield          Washington-Dulles              26.1         27.8
                           Charleston         Cincinnati                     24.6         26.4
                                              Washington-Dulles              17.9         27.8
                           Parkersburg        Pittsburgh                     18.1         25.7
    * Represents communities served by Northwest Arkansas Regional Airport.



Short-Haul Flights Experience About the Same Rate of Delays as
Medium-haul and Long-Haul Flights
Because flights serving small communities are, on average, less than 500 miles,
our study of flights into the five sampled hub airports also included analysis based
on the communities’ distance from the hub. We analyzed flight delay rates, length
of arrival delays, and cancellation rates for short-haul, medium-haul, and
long-haul flights. On average, short-haul flights to the sampled hub airports did
not incur greater rates of delays than flights in medium-haul and long-haul
markets. As shown in Table 3, the percent of flights delayed at each hub was
about the same across the three mileage groupings.

            Table 3. Percent of Arrivals Delayed—January 2005
                                   Short-Haul               Medium-Haul            Long-Haul
                              (less than 500 miles)       (500 to 999 miles)   (1000 or more miles)
   Flights Inbound To:
   Chicago O’Hare                      35.8                      36.5                 35.7
   Washington Dulles                   29.6                      25.5                 22.6
   Minneapolis                         23.8                      26.4                 25.3
   Denver                              24.4                      24.7                 28.7
   Salt Lake City                      25.5                      20.7                 31.1




                                                                                                      9
Delays Were Longer on Flights from Small Communities and Flights
from Communities Closest to the Hub

Delays Were Longer On Flights from Small Communities

At the five hub airports examined, the average length of arrival delay for flights
from small communities exceeded average delay lengths for flights from large
communities. As shown in Table 4, the differences, on average, ranged from 4 to
10 minutes or 7 to 18 percent. The differences were statistically significant.

                  Table 4. Average Minutes of Arrival Delay*
                                                               Originating From
                         Flights Inbound to:                   Community Size
                                                              Small          Large
                 Chicago-O'Hare                                 75             70
                 Washington-Dulles                              62             56
                 Minneapolis-St. Paul                           55             51
                 Denver International                           66             56
                 Salt Lake City                                 54             48
                * Results are based on averages weighted by the number of flights in each
                  market.


Flights from Sampled Small Communities Were Delayed Longer Than the
Average for Their Hub Airport

We found that the average length of arrival delays was greater for flights from the
sampled small communities compared to all flights into the hub airport. Table 5
shows that in 11 of the 14 small community markets, the average length of delay
was greater than the average length of delay at their connecting hub airport. The
differences ranged from 1 minute to as much as 19 minutes.

Table 5 on the following page compares the average minutes of delay in small
community markets to the hub airport average.




                                                                                            10
    Table 5. Average Minutes of Arrival Delay – January 2005
 Comparison of Small Community Markets With Hub Airport Average
         State            From Small          Flights Inbound to:                Small          Hub
                          Community                                            Community      Average
ARKANSAS                  Fayetteville *     Chicago-O'Hare                       82             72
                                             Dallas/Ft. Worth                     59             51
                          Texarkana          Dallas/Ft. Worth                     62             51
                                             Houston Bush                         50             46
MONTANA                   Butte              Salt Lake City                       62             50
                          Helena             Salt Lake City                       39             50
NEBRASKA                  Lincoln            Chicago-O'Hare                       91             72
                                             Denver International                 71             59
                                             Minneapolis-St. Paul                 53             52
                          McCook             Denver International                 77             59
WEST VIRGINIA             Bluefield          Washington-Dulles                    47             58
                          Charleston         Cincinnati                           46             51
                                             Washington-Dulles                    70             58
                          Parkersburg        Pittsburgh                           74             55
* Represents communities served by Northwest Arkansas Regional Airport.



Short-Haul Flights Incur Longer Delays Than Medium-Haul and Long-Haul
Flights
Of all delayed arrivals at the five sampled hub airports, those in short-haul markets
experienced slightly longer delays than the delayed flights in medium-haul and
long-haul markets, as illustrated in Table 6.

    Table 6. Average Length of Arrival Delay Minutes – January 2005
                                      Short-Haul                Medium-Haul                Long-Haul
                                 (less than 500 miles)        (500 to 999 miles)       (1000 or more miles)
  Flights Inbound To:
  Chicago O’Hare                            73                            70                   71
  Washington Dulles                         59                            57                   51
  Minneapolis                               55                            52                   49
  Denver                                    66                            59                   51
  Salt Lake City                            55                            46                   47




                                                                                                        11
Flights from Small Communities and from Communities Closest to
the Hub Airports had Higher Cancellation Rates

Flights From Small Communities Had Higher Cancellation Rates Than
Flights From Large Communities
In our analysis of five hub airports, we found that flights from small communities
were cancelled at higher rates in four of five cases (as shown in Table 7). In those
four cases, small community flights to their hubs were cancelled up to nearly three
times as often as flights from large communities. These differences were
statistically significant.


                                 Table 7. Percent of Flights Cancelled*
                                                                              Originating From
                                     Flights Inbound to:                      Community Size
                                                                              Small            Large
                            Chicago-O'Hare                                      9.7              6.8
                            Washington-Dulles                                   4.8              6.3
                            Minneapolis-St. Paul                                6.2              3.2
                            Denver International                                4.4              1.7
                            Salt Lake City                                      7.2              2.5
                          * Results are based on averages weighted by the number of flights in each
                            market.



Flights from Sampled Small Communities Were Cancelled at a Greater
Rate than the Average of All Flights to Hub Airports
In the 14 individual markets we looked at, our results were generally consistent
with our overall analysis of small community air service at five hub airports. 11 In
more than one-half of the 14 small community markets, the percentage of
departing flights cancelled was greater than the average percentage of
cancellations for all flights destined to the market’s hub airport. Table 8 on the
following page identifies these 14 markets and highlights where the rate of flight
cancellations for the small community to the hub airport was greater than the hub
airports overall rate of cancellations.




11
     Since these are not randomly selected observations, testing for statistical significance is not appropriate.


                                                                                                                    12
       Table 8. Percent of Flights Cancelled – January 2005
   Comparison of Small Community Markets With Hub Airport Total
         State           From Small           Flights Inbound to:          Small           Hub
                         Community                                       Community        Average
   ARKANSAS              Fayetteville *      Chicago-O'Hare                  14.4           7.8
                                             Dallas/Ft. Worth                3.2            2.6
                         Texarkana           Dallas/Ft. Worth                1.1            2.6
                                             Houston Bush                    0.0            0.6
   MONTANA               Butte               Salt Lake City                   5.5           4.5
                         Helena              Salt Lake City                   7.3           4.5
   NEBRASKA              Lincoln             Chicago-O'Hare                   7.4           7.8
                                             Denver International             2.4           2.6
                                             Minneapolis-St. Paul             9.5           4.4
                         McCook              Denver International             0.0           2.6
   WEST VIRGINIA         Bluefield           Washington-Dulles               11.5           5.9
                         Charleston          Cincinnati                      7.6            5.8
                                             Washington-Dulles               5.2            5.9
                         Parkersburg         Pittsburgh                      6.6            5.0
   * Represents communities served by Northwest Arkansas Regional Airport.



Short-Haul Flights Are Cancelled More Frequently Than Medium-Haul and
Long-Haul Flights
As Table 9 shows, short-haul flights into five sampled hub airports were cancelled
more frequently than medium-haul and long-haul flights. The differences were
most pronounced when comparing short-haul flights with long-haul flights. In this
comparison, flights of less than 500 miles were cancelled two to four times more
often than flights in markets of 1,000 or more miles. This skewing of the
distribution of cancellations towards short-haul flights was statistically significant.


          Table 9. Percent of Flights Cancelled – January 2005
                                 Short-Haul               Medium-Haul               Long-Haul
                             (less than 500 miles)       (500 to 999 miles)     (1000 or more miles)
Flights Inbound To:
Chicago O’Hare                         9.1                        8.5                   3.7
Washington Dulles                      6.8                        5.5                   1.7
Minneapolis                            6.2                        3.8                   1.9
Denver                                 4.1                        1.9                   2.1
Salt Lake City                         6.9                        2.7                   2.4




                                                                                                       13
Characteristics of Air Service at Small Community Airports and the
Airlines That Serve Them May Affect Flight Cancellation Rates
We examined the characteristics of air service in an effort to explain the
disproportionately higher rate of cancellations for flights from small communities
compared to flights from large communities. We found that differences in aircraft,
airports, airline operating methods, and decisions by FAA and airlines can all
contribute to the higher flight cancellation rates of flights from small communities.

Aircraft
Small communities are primarily served by aircraft (turboprop and regional jets)
that have restricted capability to fly over some weather patterns or land in certain
wind conditions. Small airports may not have cross-wind runways of sufficient
length to accommodate some regional aircraft.


Technology
Major airports and airlines are equipped with more sophisticated levels of
navigational aids than their smaller airport and airline counterparts. Many small
airports have a single Category I Instrument Landing System (ILS) on the
prevailing wind runway. This instrumentation allows landings with 200 feet of
vertical visibility above touchdown and a ½ mile of frontal visibility. If the
visibility drops below these minimums, the arriving flight may be cancelled,
which then affects the subsequent departure scheduled from the small community.
Also, if the wind changes, the cross-wind runway may not be equipped with the
appropriate navigational aids. In contrast, large airports and the large aircraft that
fly into them are equipped with Category II or Category III navigational aids that
allow landing on multiple runways in much lower visibility conditions
(Category IIIc landings may take place with no visibility). If weather conditions at
the large hub airport are very poor, large aircraft, with the more sophisticated
equipment, may be able to land when smaller aircraft are unable.


Airline Operating Methods
Small communities are usually located at the outlying ends of airline
hub-and-spoke route structures. Unlike their operations at large airports, airlines
usually do not station maintenance personnel or spare crew or aircraft at small
airports and, thus, are not able to maintain schedule reliability when mechanical or
crew availability problems arise there. In addition, late-arriving flights in the
evening may cause a cancellation or late departure the following morning in order
to comply with the FAA-enforced “minimum hours of rest” requirements. Larger
communities often have crew bases with reserve crews who can be called into
service.


                                                                                   14
FAA Management Decisions
If FAA implements a Ground Stop or Ground Delay Program on a regional rather
than nationwide basis, short-haul markets (including many from small
communities) can incur more delays. 12 When FAA plans a Ground Stop or
Ground Delay program to manage demand into a constrained airport, it must take
into consideration the estimated duration of the constraint and the amount of the
reduction in traffic that is necessary. This is then translated into a decision on the
geographic scope of the imposed halt or delay. The more severe the constraint and
expected duration, the wider the geographic halt or slow-down imposed on flights
into the constrained airport. FAA may elect to impose the program on less than a
nationwide basis when the anticipated start of a constraint is uncertain or the
duration is not expected to exceed 2 or 3 hours. 13


Airline Economic Choices
When FAA implements a Ground Delay Program, airlines have limited flexibility
to swap delayed arrival positions among their flights and to cancel flights and
move others of their delayed flights into the arrival positions of the cancelled
flights.

Airlines have many competing priorities to consider when deciding whether to
further delay or cancel a flight. Airlines may decide to sacrifice a flight in a large
market with frequent service in order to accommodate a flight from a small market
with limited service. Or, alternatively, an airline may further delay or cancel a
flight from a small community in order to accommodate a flight from a large
community, for example the aircraft may be needed for an international departure
or is carrying more connecting passengers. 14 During operational disruptions, the
major airlines use a suite of complex software programs to track aircraft routing
requirements, remaining crew time, spare aircraft and crew availability, and
alternative passenger routing options. The intent of the airlines is to maintain an
efficient operation, minimize the amount of inconvenience, and recover the
schedule as quickly as possible.


12
     During January 2005, FAA implemented Ground Stop programs at Chicago O’Hare airport 19 times over 12 days
     for a total of 26 hours of duration. However, in 13 of the 19 instances, FAA applied the total halt only to flights
     departing from airports within the Midwest (for a combined 16 of the total hours). During the balance of the cases,
     the Midwest was included in the halts applied to flights on a wider or nationwide geographic scope.
13
     FAA may not want to halt flights from far distant airports on the speculation of the start of or duration of constraints
     at the destination airport in the event that the flight might be able to land by the time it actually arrives. This is
     opposed to flights from closer airports that permit FAA to make delay management decisions closer to the start of
     actual constraining events and hold flights on the ground prior to scheduled departure.
14
     Another reason for a cancellation during a Ground Delay Program may be that the visibility conditions at the arrival
     airport are sufficient to only accommodate aircraft with more sophisticated navigational aids, so flights with some
     regional aircraft serving small communities are cancelled because they lack the highest level of landing aids.


                                                                                                                        15
FAA and Airlines Each Make Decisions Affecting Flight Delays, but
Only Airlines May Cancel a Flight

Throughout each day, FAA, airlines, and other aircraft operators (general aviation
and military) together orchestrate a complex symphony of 25,000 flights, working
to safely maximize the efficient use of the airspace and airports and minimize
delays and cancellations. All parties must work collaboratively for this to be
effective.

FAA Determines Available Airspace and Airport Capacity Throughout the
Day
FAA’s Air Traffic Management role is to determine the daily capability of the
National Aviation System components (airports and enroute airspace) and, where
constrained, manage the aircraft operators’ demand for that enroute and terminal
airspace capacity. The goal of the process is to balance demand and efficiency
with safety and capacity.

Each day FAA determines the capacity of enroute airspace and airports that can
support flight activity both safely and efficiently. From the bottom up, each
airport, approach control, and enroute control center assesses its capacity, taking
into consideration the weather forecast (the cause of half of all flight delays),
airport construction, and other factors that may limit usual ability to accommodate
flight activity (see Figure 1). This information enables FAA to determine the
capacity of the components of the National Airspace System and monitor
conditions throughout the day. This effort is coordinated by FAA’s Air Traffic
Control System Command Center, located in Herndon, Virginia.

   Figure 1. FAA Determines Available Airspace Capacity From the
                  Local Level to the National Level



          National Weather
              Forecast




                                                                                16
The Command Center conducts regular conference calls every 2 hours throughout
the day to discuss the condition, capacity, and management of the National
Airspace System. Local and regional air traffic control facilities, air traffic flow
managers, airlines, and other aviation system users participate in system status
conference calls. The Command Center discusses those anticipated weather
conditions that will affect capacity, anticipated restrictions, and potential and
actual actions by FAA that will reduce demand when insufficient capacity exists.
The practice is part of the Collaborative Decision-Making technique employed to
bring FAA and the airspace users together to solve airspace management issues.


Airlines Supply FAA With Real-Time Data on Flight Status and Intended
Operations
Airlines supply FAA with real-time information on flight status 15 to enable FAA
to determine the demand for National Airspace System resources and measure the
potential effects of FAA Traffic Flow Management actions. These data also
communicate schedule readjustments when FAA imposes delay controls. In
return, FAA provides real-time information on intended departure release times.
In addition, when FAA institutes demand management programs, the airlines are
permitted some flexibility to again adjust their schedules to manage the
FAA-assigned delay.

When Capacity Constraints Are Identified, FAA and Airlines Take Action
When demand for air traffic services exceeds the available capacity of the
National Aviation System (either due to constraints on usual capacity or
above-usual demand), FAA moves to balance demand and capacity through the
use of various management initiatives.

During calendar year 2005, weather was the direct cause of 28 percent of aviation
delays and 52 percent of all flight cancellations. Figure 2 on the following page
highlights the major causes of delays and cancellations. Severe weather
conditions reduce capacity in the system, requiring FAA and the airlines to adjust
demand to accommodate those constraints. Some airports are so heavily
scheduled even for good weather conditions that moderate storms or wind shifts
can cause constraints that lead to delays. Runway construction or national
sporting events are other examples of capacity constraints or excessive demand
that might require FAA to implement flight management initiatives.


15
     Airlines periodically file flight schedules, which represent planned operations, with the Official Airline Guide
     (OAG). When weather or other events disrupt normal operations, the airlines rearrange and reschedule operations to
     accommodate the reduced capacity. These are the real-time data that FAA needs in order to keep the National
     Airspace System functioning efficiently, especially under constrained capacity.


                                                                                                                   17
  Figure 2. Weather Is a Leading Cause of Delays and Cancellations
              CY 05 Cause s of De lay                    CY 05 Cance llation Cause s

  Other 11%                                                  Other 4%
                                        Carrier
                                         28%                                           Carrier
                                                                                        44%
                                                  W eather
                                                    52%




 Late Arriving
   Aircraft                         W eather
     33%                              28%




Local Air Traffic Control Manages Immediate, Short-Term Capacity
Constraints and Demand Spikes
Air Traffic Control (ATC) exercises direct control over individual aircraft arriving
and departing from airports and their movement in airspace between airports.
When airspace or airport capacity becomes temporarily constrained (a delay of
less than 30 minutes) or demand is excessive, local towers, approach control
centers, or enroute control centers may institute Tactical Management Initiatives
such as:

• minor departure holding,
• vectoring (circuitous routing to destination),
• circular holding (requiring arriving flights to circle the airport until a landing
  opportunity exists).


Nationally, FAA Traffic Flow Management Manages More Severe
Congestion Strategically
Under the most severe conditions, FAA may (1) reroute flights around congested
enroute airspace (usually caused by weather), (2) implement a Ground Stop
program that will halt all flights destined to constrained airports or airspace, or
(3) implement a Ground Delay Program and assign delayed arrival times (and,
thus, delayed departure times) to specific flights destined to constrained airports or
airspace.


Rerouting Flights Around Congestion and Weather Reduces Bottlenecks
Weather or high demand may congest enroute airspace, preventing airlines from
taking the most desirable flight route or imposing considerable delays on that

                                                                                             18
route. In these cases, FAA may reroute flight paths around the congestion. Using
a collection of predetermined routing segments contained in FAA’s “Play Book,”
the Command Center can advise airlines of congestion, thus allowing the airlines
to reroute on their initiative or accept FAA-assigned rerouting directions to the
flights destined for the affected airspace.


Ground Stops Hold Flights Destined for Constrained Areas at Their
Departure Airports
A Ground Stop is a procedure that requires aircraft that meet specific criteria to
remain on the ground until the Ground Stop is lifted. Ground Stops are
implemented when ATC is unable to safely accommodate additional aircraft in the
system. The Ground Stop may affect a specific airport, a geographic area, or a
category of aircraft. 16

Ground Stops may be implemented in an ever-widening circle (tiers) around the
affected airport, as Figure 3 indicates. When applied on a less-than-nationwide
basis, flights from airports within the Ground Stop tier(s) will absorb the delays.
The short-haul flights—which includes most of those coming from small
communities—will be delayed more than those from airports farther away.

     Figure 3. FAA May Implement Ground Stops and Ground Delays in
            Ever-expanding Circles Around the Affected Airport
               (Example of Concentric Tiers around Chicago)




                                                                                 Chicago


                                           Tier 2
                                                                    Tier 1




16
     As visibility at the arrival airport deteriorates, flights with less sophisticated onboard navigational aids (Category II
     and Category I) may be unable to land.


                                                                                                                         19
Ground Stops are most frequently used for severely reduced capacity situations
such as:
   • weather below user arrival minimums (visibility),
   • severe weather that reduces usable routes,
   • major equipment outages, and
   • catastrophic events.

Ground Delay Programs Pace Demand by Delaying Departures and
Arrivals
A Ground Delay Program is a traffic management procedure that delays aircraft at
their departure airports in order to spread scheduled arrivals at a constrained
destination airport over a longer period of time. FAA assigns arrival times (and,
thus, delayed departure times) in the order in which the flights were originally
scheduled to arrive. The result is that flights scheduled later in the order are
assigned the greatest amount of delay. Unlike a Ground Stop under which FAA
halts all flights, the Ground Delay Program allows airlines some flexibility in
managing their FAA-assigned delays.

In the following hypothetical model, an airport that can accept 30 aircraft per hour
under normal conditions is reduced to 15 arrivals per hour. As illustrated in
Figure 4 on the next page, Carrier C’s Flight #1, which was scheduled to arrive at
8:04, is reassigned a slot at 8:08, a 4-minute delay. In their original order, flights
are assigned escalating levels of delay so that by Carrier C’s scheduled Flight #4,
the delay has grown to 30 minutes.




                                                                                   20
    Figure 4. FAA Spreads Out the Demand By Delaying Arrivals:
      Delays Imposed on Flights Later in the Order Are Longer
               Original Arrival Time                  Revised Arrival Time
        (Acceptance rate = 30 planes/hour)     (Acceptance rate = 15 planes/hour)
          8:00   Carrier A #1                      8:00
          8:02   Carrier B #1
          8:04   Carrier C #1                      8:04
          8:06   Carrier A #2
          8:08   Carrier B #2                      8:08
          8:10   Carrier A #3
          8:12   Carrier C #2                      8:12
          8:14   Carrier B #3
          8:16   Carrier A #4                      8:16
          8:18   Carrier A #5
          8:20   Carrier C #3                      8:20
          8:22   Carrier B #4
          8:24   Carrier A #6                      8:24
          8:26   Carrier A #7
          8:28   Carrier B #5                      8:28
          8:30   Carrier C #4
          8:32                                     8:32
          8:34
          8:36                                     8:36
          8:38
          8:40                                     8:40
          8:42
          8:44                                     8:44
          8:46
          8:48                                     8:48
          8:50
          8:52                                     8:52
          8:54
          8:56                                     8:56
          8:58
                                                   9:00


Similar to a Ground Stop, a Ground Delay Program may be implemented in tiers,
and when imposed on a less-than-nationwide basis, flights from airports within the
region affected by the Ground Delay absorb most of the delays.

During January 2005, of the more than 300 occasions when FAA stepped in to halt
or moderate the flow of flights, nearly two-thirds occurred at eight airports, for a
cumulative duration of more than 700 hours (see Figure 5 on the following page).
Two of the airports included in our hub-specific analysis—Chicago-O’Hare and
Washington-Dulles—were among those eight airports. While Ground Stop and
Ground Delay programs are imposed at only a limited number of destination
airports, the effect is more far-reaching, as flights from dozens of communities to
each destination airport may be included in the traffic flow management initiative.




                                                                                    21
             Figure 5. Flights Into Only A Few Airports Were Subjected to FAA
                                   Management Programs
                                                Number of and Cumulative Hours of Ground Stop and Ground Delay Programs
                                               200
 Cumulative Hours of Stops & Delay Pr ograms


                                               180

                                               160

                                               140
                                               120

                                               100          16

                                                80                                12

                                                60
                                                                                                              11                                                              11
                                                                                                10                                                          7
                                                40                                                                        6
                                                                                                                                           4
                                                20          19                                                                                       8                                   3        1
                                                                                  22                                             10                                  1
                                                                                                22
                                                                                                              14          15
                                                 0
                                                                              a




                                                                                                                                                                         le
                                                                                                                                                       ia




                                                                                                                                                                                              s
                                                                                                                                       s
                                                        e




                                                                                            a




                                                                                                                     on
                                                                                                          k
                                                                           hi




                                                                                                                                                                                           er
                                                                                                                                    le




                                                                                                                                                                          a
                                                      ar




                                                                                          nt




                                                                                                                                                     rd
                                                                                                         ar
                                                                        lp




                                                                                                                                                                       rd
                                                                                                                     st




                                                                                                                                 ul




                                                                                                                                                                                        th
                                                                                          la
                                                     'H




                                                                                                                                                 ua
                                                                                                     ew
                                                                     de




                                                                                                                   Bo




                                                                                                                                                                    de
                                                                                                                                D




                                                                                                                                                                                     O
                                                                                       At
                                                 O




                                                                                                                                                 G
                                                                                                     N
                                                                   la




                                                                                                                                                                 au




                                                                                                                                                                                   29
                                                                                                                                               La
                                                                    i
                                                                 Ph




                                                                                                                                                            .L




                                                                                                                                                                                 g
                                                                                                                                                                              Av
                                                                                                                                                            Ft
                                                                                                         Ground Stops          Ground Delay




Airlines Have Some Flexibility To Rearrange Delays or They Can Cancel
Flights
A complex process starts once FAA decides that a Ground Delay Program is
necessary. FAA assigns a new (delayed) arrival time slot to flights scheduled to
arrive during the estimated period of congestion. While the delays are initially
assigned to specific flights as they appear in the arrival order, the airlines then
have some flexibility to (1) swap the order of delayed flights among its
FAA-assigned delayed arrival positions, (2) cancel any of its delayed flights and
move another of its delayed flights into that vacant arrival position, or (3) cancel
any of its delayed flights and attempt to trade that vacant arrival position with
another airline. Only airlines can make the decision to cancel a flight.


Airlines May Swap Flights Among Delayed Arrival Positions
Once flights are assigned delays by FAA, airlines are permitted to rearrange their
schedule to accommodate their priorities. Figure 6 on the following page is an
example of a simple flight swap within a Ground Delay Program. Carrier B swaps
the delayed arrival order of its Flight #3 and Flight #6, so that Flight #6
experiences the 15-minute delay originally assigned to Flight #3, which then
inherits the 40-minute delay.




                                                                                                                                                                                                      22
   Figure 6. Airlines May Swap the Order of Their Delayed Arrivals
           Airline     Flight   Original time of Arrival   Controlled time of Arrival   Delay
              A          1                 7:00                    7:00                    0
              A          2                 7:00                    7:10                   10
              B          3                 7:05                    7:20                   15
              B          4                 7:05                    7:30                  25
              B          5                 7:10                    7:40                  30
              B          6                 7:10                    7:50                  40
              A          7                 7:20                    8:00                  40
              C          8                 7:20                    8:10                  50
              B          9                 7:40                    8:20                  40
              C         10                 7:40                    8:30                  50
              A         11                 8:20                    8:40                  20
              B         12                 8:40                    8:50                  10
         Total Delay                                                                     330


Airlines may decide to further delay one flight and bring another forward in the
queue due to factors such as:

   • minimizing disruption for the maximum number of passengers,
   • expiring crew duty time,
   • need to accommodate large numbers of connecting passengers, or
   • positioning aircraft for subsequent departures.


Only an Airline May Cancel a Flight
Within the flexibility of the Ground Delay Program, airlines may cancel a flight
and move another of its delayed flights into the cancelled flight’s arrival position.
Cancellation of a flight during a Ground Delay Program may result in sizable
reductions in the duration of delay for other flights. Only an airline may make the
decision to cancel a flight.

During a Ground Delay Program, airlines are constantly reviewing their operating
and customer service priorities in an attempt to affect the fewest customers as
possible, minimize disruption to the airline’s schedule, and recover from disrupted
operations as quickly as possible. To accomplish these ends, an airline may
decide to cancel a delayed flight, or flights, and move other of their flights up in
the delay queue. In making those decisions, airlines evaluate the condition of their
flight operations and available options to mitigate passenger inconvenience (e.g.,
alternative connections, availability on other airlines, flight diversion, hotel
availability, or ground transportation). Some of the reasons for cancelling a flight
during a Ground Delay Program are:



                                                                                           23
   • flights in high-frequency markets might be cancelled to minimize delays of
     flights in markets with few frequencies,
   • weather conditions contributing to the Ground Delay Program may reduce
     visibility below the minimums required for some aircraft, and
   • aircraft may be so late that the continuation of its routing may make it
     unavailable (out of position) for its first flight the next day.

When airlines cancel flights, FAA compresses the remaining queue of delayed
flights into the vacated arrival position in order to use the limited capacity
efficiently. This schedule compression may result in sizable reductions in delays
for all carriers affected by the Ground Delay Program.

In the hypothetical example shown in Figure 7, Airline B cancels Flight #3 and
moves Flight #6 up in the queue into Flight #3’s delayed arrival position. With the
elimination of Flight #3, FAA moves all flights positioned to arrive after Flight
#6’s original position up in the queue. As the hypothetical schedule in Figure 7
illustrates, the cumulative delay of all flights is reduced from 330 minutes to
225 minutes, avoiding approximately one-third of the combined delay that all
flights would have experienced during that period of constrained capacity.

          Figure 7. Cancellation of a Flight May Result in Sizable
                       Reductions in Overall Delay
     Schedule Before Cancelling Flight 3, Moving Flight 6, and Compression
     Airline     Flight   Original time of Arrival   Controlled time of Arrival   Delay
        A           1               7:00                     7:00                   0
        A           2               7:00                     7:10                  10
        B           3               7:05                     7:20                  15
        B           4               7:05                     7:30                  25
        B           5               7:10                     7:40                  30
        B           6               7:10                     7:50                  40
        A           7               7:20                     8:00                  40
        C           8               7:20                     8:10                  50
        B           9               7:40                     8:20                  40
        C         10                7:40                     8:30                  50
        A         11                8:20                     8:40                  20
        B         12                8:40                     8:50                  10
   Total Delay                                                                     330


      Schedule After Cancelling Flight 3, Moving Flight 6, and Compression

     Airline     Flight   Original time of Arrival   Controlled time of Arrival   Delay
        A           1               7:00                     7:00                   0
        A           2               7:00                     7:10                  10
        B           6               7:10                     7:20                  10
        B           4               7:05                     7:30                  25
        B           5               7:10                     7:40                  30
        A           7               7:20                     7:50                  30
        C           8               7:20                     8:00                  40     Total delay
        B           9               7:40                     8:10                  30     reduced by 105
                                                                                          minutes
        C         10                7:40                     8:20                  40
        A         11                8:20                     8:30                  10
        B         12                8:40                     8:40                   0
   Total Delay                                                                     225




                                                                                                           24
Airlines May Cancel a Flight and Offer the Delayed Arrival Slot in
Exchange for the Arrival Slot of Another Airline
For any number of reasons, airlines may find that they are unable to use an
assigned arrival slot under a Ground Delay Program. In that event, the slot risks
being unused and becomes a waste of a valuable resource. Rather than allow the
delayed arrival slot to go unused, FAA permits the airlines to offer the arrival slot
in trade to other airlines in return for a later arrival position from the recipient.
These trades are “blind” to preclude the possibility of bias in the process—for
example, an airline preventing the slot from being used by a competitor in the
same market.




                                                                                  25
EXHIBITS A. SCOPE AND METHODOLOGY

Scope
In a letter to the Inspector General, the Chairman of the Senate Commerce
Committee Subcommittee on Aviation requested that our office determine and
quantify whether flights originating in small or non-hub airports are delayed or
canceled at a rate that is disproportionately higher than flights from larger airports.
In addition, the Committee requested that we explain the roles of FAA and the
airlines in determining which flights are delayed or canceled during periods of
reduced airport capacity or excessive demand.

Our review was concentrated on a few small community airports, as requested by
the Subcommittee, from the states of Arkansas, Nebraska, West Virginia, and
Montana. We also examined the flights from communities of all sizes into five
large hub airports. To maximize the potential number of observations, the analysis
was limited to one delay-prone month, January 2005. We analyzed flight activity
at judgmentally selected airports, using airport size (i.e., small-hubs, non-hubs,
and primary commercial points), flight service (i.e., number of flights and
destinations), and availability of flight delay and cancellation data as selection
criteria.

Data in the report were obtained from FAA. These data were used to perform the
analyses detailed below.

The identification of roles and the decision-making process in flight delays and
cancellations during airspace capacity constraints was limited to FAA, Metron
Aviation, and the airlines.

There has been no prior audit coverage in this area by the Department of
Transportation’s Office of Inspector General.


Methodology
Analysis. We examined the flight delay and cancellation experience for January
2005 to determine if small communities experienced a disproportionate level of
flight disruptions compared to large communities. Our initial analysis compared
flight delay and cancellation measures in 14 markets connecting small
communities with their connecting hub airports (9 hubs in total) with the measures
for all flights into each hub airport. Since airspace congestion mostly affects
flights arriving at large hub airports, we analyzed flight delay and cancellation
data for flights into these sampled hub airports. Following the results of our initial


Exhibit A. Scope and Methodology                                                    26
analysis, we expanded our examination to compare flights from communities of all
sizes. For our analysis, we selected the flights into five large connecting hub
airports.

We analyzed airport-pairs that represented predominantly domestic scheduled
passenger service. 17 We downloaded summary counts of operated flights, delayed
arrivals, and cancellations and rates of delayed arrivals and average minutes of
delay by directional airport-pair from FAA Aviation System Performance Metrics
database. We calculated the average percent of flights cancelled for each
directional airport-pair. We assigned the FAA hub category designation (for
2004) to each airport-pair based on the origin airport of the directional airport-hub
pair to aid in the comparison of results by community size.

The analysis compared weighted average rates of arrival delays, minutes of arrival
delay, and rates of flight cancellations for flights in markets between small
communities and the large hub with the weighted average for the flights in
markets from the large communities and the large hub. We also conducted
analyses comparing the same performance measures for short-haul, medium-haul,
and long-haul flights from all communities into the same hub airport.

Statistical Testing of the Effects of Community Size. We calculated the weighted
and unweighted average cancellation rates for both small and large communities
for flights scheduled to arrive in each of the five hub airports. Since the number of
cancellations and scheduled flights in our data set were reported by market, each
unweighted average represented an average cancellation rate across markets. We
were more concerned with the cancellation rate across flights and, thus, calculated
weighted averages using the share of flights in each market as the weighting
factor.

A t-test was performed on the difference between the cancellation rates for the two
groups for each airport and overall, for both the weighted and unweighted
averages. 18 The t-test for the weighted averages was performed by running a
weighted regression on a constant and a dummy variable that indicated whether
the community was large or not.

We used the same analysis to test differences in delay rates and minutes of delay.

Statistical Testing of the Effects of Distance from Hub Airport. We performed
Chi-square goodness-of-fit tests2 on the distributions of flight cancellations and of
flight delays across the three distance groupings. We assumed the expected

17
      We excluded international markets, airport-pairs with less than 21 flights for the month, and airport-pairs that were
     known to be only air-cargo markets.
18
     The t-test and the Chi-square goodness-of-fit test are statistical measures that are commonly used in business, social,
     and scientific studies.


Exhibit A. Scope and Methodology                                                                                       27
distribution of cancellations to be in proportion to scheduled flights. The expected
distribution of delays was assumed to be in proportion to actual flights.


Data
We did not systematically audit or validate the data contained in any of the
databases. However, in prior work, we conducted trend analyses and sporadic
checks of the data to assess reasonableness and comprehensiveness. We also held
discussions with managers responsible for maintaining the databases to understand
and attempt to resolve any noted inconsistencies. Based on our understanding of
the data through discussions with knowledgeable agency officials, as well as
checks for obvious errors in accuracy and completeness, we determined that the
data were sufficiently reliable for our purposes. However, we note that our
evaluation of recent revisions to FAA’s flight cancellations data indicate it is not
reliable for extending or updating these analyses.

We conducted statistical analyses of history, trends, and aviation system
performance; scheduled airline service; and the categorization of airports using
ATC delay and operational statistics, airline schedule information, and passenger
boarding data obtained from FAA sources. We performed analyses of the causes
of flight delays and cancellations using traffic and operational statistics obtained
from FAA sources. A list of our data sources follows.

   1. Flight Schedule Data System (FSDS). An FAA-maintained database of
      published airline flight schedules. Scope: worldwide, 1995 through
      March 2006.

   2. Aviation System Performance Metrics (ASPM). A database of FAA air
      traffic control performance measures, including delays, cancellations,
      operations, and causes for delays. Scope: 55 major airports across the
      country and all enroute control centers, calendar years 2004 and 2005.

   3. Air Carrier Activity Information System (ACAIS). An FAA database that
      contains revenue passenger boarding (enplanement) data; the data supports
      the FAA classification of airports into hub types. Scope: calendar year
      2004.

   4. Airline Service Quality Performance (ASQP). An FAA database of
      on-time flight statistics. Scope: passenger flights scheduled, delayed, and
      cancelled for the 12 months ended December 31, 2005.




Exhibit A. Scope and Methodology                                                 28
   5. Ground Delays and Ground Stops. FAA reports on Ground Delay and
      Ground Stop programs including airport, scope, date, and time. Scope:
      January 2005.

To gain an understanding of roles and decisions in flight delays and cancellations,
we had discussions with staff at the following locations.

      •   FAA’s Air Traffic Control System Command Center in Herndon, VA
      •   Midwest United States Air Traffic System Operations in Des Planes, IL
      •   Chicago Air Traffic Control Center in Aurora, IL
      •   United Airlines in Elk Grove Village, IL
      •   the Regional Airline Association in Washington, DC
      •   Metron Aviation, an aviation consultant to FAA in Herndon, VA

We interviewed airport managers to obtain information on the effects of flight
delays and cancellations on small community airports, including those from these
locations.

      •   Bluefield, WV
      •   Butte, MT
      •   Charleston, WV
      •   Helena, MT
      •   Lincoln, NE
      •   Northwest Arkansas Regional Airport, Bentonville, AR
      •   Parkersburg, WV

We also interviewed executives at the Lincoln, NE, Chamber of Commerce to gain
an insight on how flight disruptions affect travelers in small communities.

Terms and Definitions for the Current Report
Hub Airport. A ranking designation of U.S. airports by FAA based on the
airport’s percentage share of total passenger enplanements at all U.S. airports.
FAA categorizes airports based on the following enplanement criteria.

      Percentage of Annual Passenger Enplanements in the U.S. by Hub Type

      Large Hub            1.0% or more of total enplanements
      Medium Hub           at least 0.25% but less than 1%
      Small Hub            at least 0.05% but less than 0.25%
      Non-hub              at least 2,500 enplanements but less than 0.05%

Exhibit A. Scope and Methodology                                                29
Based on calendar year 2004 data, the selected airports in this review were in the
following hub categories:

                       State             Airport           Hub
                                                         Category
                  ARKANSAS         Northwest Arkansas      Small
                                   Texarkana             Non-hub
                  MONTANA          Butte                 Non-hub
                                   Helena                Non-hub
                  NEBRASKA         Lincoln               Non-hub
                                   McCook                Non-hub
                  WEST VIRGINIA    Bluefield/Princeton   Non-hub
                                   Charleston            Non-hub
                                   Parkersburg           Non-hub




Exhibit A. Scope and Methodology                                               30
EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT:

Name                              Title
 Leila D. Kahn                    Program Director
 Stephen Smith                    Project Manager
 Ralph W. Morris                  Economist
 Betty Krier                      Economist
 Petra Swartzlander               Statistician
 Gina Ronzello                    Analyst
 Jenny Shin                       Student Intern




Exhibit B. Major Contributors to this Report            31
The following pages contain textual versions of the graphs and charts contained in
this document. These pages were not a part of the original document but have
been added here to accommodate assistive technology.

                    Table I. Percent of Flights Delayed*
                                                              Originating From
                        Flights Inbound to:                   Community Size
                                                             Small          Large
                Chicago-O'Hare                                 37             36
                Washington-Dulles                              28             28
                Minneapolis-St. Paul                           23             26
                Denver International                           25             26
                Salt Lake City                                 24             24

              * Results are based on averages weighted by the number of flights in each
                market.




                      Table II. Average Minutes of Arrival
                                     Delay*
                                                                Originating From
                          Flights Inbound to:                   Community Size
                                                               Small           Large
                  Chicago-O'Hare                                 75              70
                  Washington-Dulles                              62              56
                  Minneapolis-St. Paul                           55              51
                  Denver International                           66              56
                  Salt Lake City                                 54              48

              * Results are based on averages weighted by the number of flights in each
                market.


.

                   Table III. Percent of Flights Cancelled*
                                                               Originating From
                          Flights Inbound to:                   Community Size
                                                               Small       Large
                  Chicago-O'Hare                                 9.7            6.8
                  Washington-Dulles                              4.8            6.3
                  Minneapolis-St. Paul                           6.2            3.2
                  Denver International                           4.4            1.7
                  Salt Lake City                                 7.2            2.5
                *Results are based on averages weighted by the number of flights in each
                  market.



                                                                                           32
    Table IV. Percent of Flights Cancelled – January 2005
Comparison of Small Community Markets With Hub Airport Total
    State         From Small        Flights Inbound to:            Small                 Hub
                  Community                                      Community              Average
ARKANSAS          Fayetteville    Chicago-O'Hare                    14.4                  7.8
                                  Dallas/Ft. Worth                  3.2                   2.6
                  Texarkana       Dallas/Ft. Worth                  1.1                   2.6
                                  Houston Bush                      0.0                   0.6
MONTANA           Butte           Salt Lake City                     5.5                  4.5
                  Helena          Salt Lake City                     7.3                  4.5
NEBRASKA          Lincoln         Chicago-O'Hare                     7.4                  7.8
                                  Denver International               2.4                  2.6
                                  Minneapolis-St. Paul               9.5                  4.4
                  McCook          Denver International               0.0                  2.6
WEST VIRGINIA     Bluefield       Washington-Dulles                 11.5                  5.9
                  Charleston      Cincinnati                        7.6                   5.8
                                  Washington-Dulles                 5.2                   5.9
                  Parkersburg     Pittsburgh                        6.6                   5.0




                   Table 1. Percent of Flights Delayed*
                                                           Originating From
                      Flights Inbound to:                  Community Size
                                                          Small            Large
                Chicago-O'Hare                              37              36
                Washington-Dulles                           28              28
                Minneapolis-St. Paul                        23              26
                Denver International                        25              26
                Salt Lake City                              24              24
            * Results are based on averages weighted by the number of flights in each
              market.




                                                                                                  33
      Table 2. Percent of Flights Delayed – January 2005
   Comparison of Small Community Markets With Hub Airport
                           Average
        State          From Small           Flights Inbound to:             Small        Hub
                       Community                                          Community    Average
 ARKANSAS              Fayetteville *      Chicago-O'Hare                    35.8        36.1
                                           Dallas/Ft. Worth                  18.3        20.7
                       Texarkana           Dallas/Ft. Worth                   6.6        20.7
                                           Houston Bush                      14.3        20.0
 MONTANA               Butte               Salt Lake City                    20.8        24.2
                       Helena              Salt Lake City                    23.5        24.2
 NEBRASKA              Lincoln             Chicago-O'Hare                    34.8        36.1
                                           Denver International              24.0        25.4
                                           Minneapolis-St. Paul              27.6        25.0
                       McCook              Denver International              22.6        25.4
 WEST VIRGINIA         Bluefield           Washington-Dulles                 26.1        27.8
                       Charleston          Cincinnati                        24.6        26.4
                                           Washington-Dulles                 17.9        27.8
                       Parkersburg         Pittsburgh                        18.1        25.7
 * Represents communities served by Northwest Arkansas Regional Airport




         Table 3. Percent of Arrivals Delayed—January 2005
                                Short-Haul              Medium-Haul               Long-Haul
                           (less than 500 miles)      (500 to 999 miles)      (1000 or more miles)
Flights Inbound To:
Chicago O’Hare                      35.8                      36.5                    35.7
Washington Dulles                   29.6                      25.5                    22.6
Minneapolis                         23.8                      26.4                    25.3
Denver                              24.4                      24.7                    28.7
Salt Lake City                      25.5                      20.7                    31.1




                                                                                                     34
                           Table 4. Average Minutes of Arrival
                                         Delay*
                                                                     Originating From
                               Flights Inbound to:                   Community Size
                                                                    Small            Large
                       Chicago-O'Hare                                 75              70
                       Washington-Dulles                              62              56
                       Minneapolis-St. Paul                           55              51
                       Denver International                           66              56
                       Salt Lake City                                 54              48
                      * Results are based on averages weighted by the number of flights in each
                        market.




    Table 5. Average Minutes of Arrival Delay – January 2005
 Comparison of Small Community Markets With Hub Airport Average
         State            From Small          Flights Inbound to:            Small                  Hub
                          Community                                        Community              Average
ARKANSAS                  Fayetteville *     Chicago-O'Hare                     82                   72
                                             Dallas/Ft. Worth                   59                   51
                          Texarkana          Dallas/Ft. Worth                   62                   51
                                             Houston Bush                       50                   46
MONTANA
                          Butte              Salt Lake City                     62                  50
                          Helena             Salt Lake City                     39                  50
NEBRASKA                  Lincoln            Chicago-O'Hare                     91                  72
                                             Denver International               71                  59
                                             Minneapolis-St. Paul               53                  52
                          McCook             Denver International               77                  59
WEST VIRGINIA             Bluefield          Washington-Dulles                  47                  58
                          Charleston         Cincinnati                         46                  51
                                             Washington-Dulles                  70                  58
                          Parkersburg        Pittsburgh                         74                  55
* Represents communities served by Northwest Arkansas Regional Airport.




                                                                                                            35
  Table 6. Average Length of Arrival Delay Minutes – January 2005
                                 Short-Haul                Medium-Haul                Long-Haul
                            (less than 500 miles)        (500 to 999 miles)       (1000 or more miles)
Flights Inbound To:
Chicago O’Hare                         73                         70                         71
Washington Dulles                      59                         57                         51
Minneapolis                            55                         52                         49
Denver                                 66                         59                         51
Salt Lake City                         55                         46                         47




                    Table 7. Percent of Flights Cancelled*
                                                                Originating From
                          Flights Inbound to:                   Community Size
                                                               Small          Large
                  Chicago-O'Hare                                 9.7            6.8
                  Washington-Dulles                              4.8            6.3
                  Minneapolis-St. Paul                           6.2            3.2
                  Denver International                           4.4            1.7
                  Salt Lake City                                 7.2            2.5
                 * Results are based on averages weighted by the number of flights in each
                   market.




                                                                                                   36
       Table 8. Percent of Flights Cancelled – January 2005
   Comparison of Small Community Markets With Hub Airport Total
         State           From Small           Flights Inbound to:          Small           Hub
                         Community                                       Community        Average
   ARKANSAS              Fayetteville *      Chicago-O'Hare                  14.4           7.8
                                             Dallas/Ft. Worth                3.2            2.6
                         Texarkana           Dallas/Ft. Worth                1.1            2.6
                                             Houston Bush                    0.0            0.6
   MONTANA               Butte               Salt Lake City                   5.5           4.5
                         Helena              Salt Lake City                   7.3           4.5
   NEBRASKA              Lincoln             Chicago-O'Hare                   7.4           7.8
                                             Denver International             2.4           2.6
                                             Minneapolis-St. Paul             9.5           4.4
                         McCook              Denver International             0.0           2.6
   WEST VIRGINIA         Bluefield           Washington-Dulles               11.5           5.9
                         Charleston          Cincinnati                      7.6            5.8
                                             Washington-Dulles               5.2            5.9
                         Parkersburg         Pittsburgh                      6.6            5.0
   * Represents communities served by Northwest Arkansas Regional Airport.




          Table 9. Percent of Flights Cancelled – January 2005
                                 Short-Haul               Medium-Haul               Long-Haul
                             (less than 500 miles)       (500 to 999 miles)     (1000 or more miles)
Flights Inbound To:
Chicago O’Hare                         9.1                        8.5                   3.7
Washington Dulles                      6.8                        5.5                   1.7
Minneapolis                            6.2                        3.8                   1.9
Denver                                 4.1                        1.9                   2.1
Salt Lake City                         6.9                        2.7                   2.4




                                                                                                       37
   Figure 5. Flights Into Only A Few Airports Were Subjected to FAA
                          Management Programs
Number of and Cumulative Hours of Ground Stop and Ground Delay Programs


Airport           Number    Number of      Total       Total      Combined
                     of    Ground Delay   Hours of   Hours of     Hours of
                  Ground     Programs     Ground      Ground    Ground Stops
                   Stops                   Stops      Delay      and Ground
                                                     Programs      Delay
                                                                  Programs
O’Hare              19         16           26         152           178
Philadelphia        22         12           22         97            119
Atlanta             22         10           25          54            79
Newark              14         16           11          70            86
Boston              15          6           17          38            55
Dulles              10          4            9          34            43
LaGuardia            8          7           13          60            73
Fort Lauderdale      1         11            1          85            86
Average of 29       3          1            4           8            12
Other Airports




                                                                          38
